No.20-807
In the

Supreme Court of the United States

Petitioners,

BRADLEY LEDURE
v.

UNION PACIFIC RAILROAD COMPANY
Respondent.

Petition for a Writ of Certiorari to the
United States Court of Appeals for ttre
Seventh Circuit.

On

CERTIFICATB OF COMPLIANCE WITH RULE 33.I

This Amici Curiae brief of the Sheet Metal, Air, Rail Transportation
Workers-Transportation Division, the Brotherhood of Locomotive Engineers and
Trainmen, and the Academy of Rail Labor Attorneys comply with the type-volume

limitations of Rule 33.1 because this brief contains 1,985 words, including
footnotes, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).

M. Mann
Counsel of Record
9205 Redwood Avenue
Bethesda, MD 20817
Alper & Mann, P.C.

(202) 2e&-erer
mann.larrym@gmall.com
Co-Counsel for Amici Curiae

